           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     BENEFICIARIES WHO HAD NOT
    CASHED THEIR SOCIAL SECURITY
        CHECKS WITHIN 1 YEAR

      July 2012    A-09-10-20133




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      July 19, 2012                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Beneficiaries Who Had Not Cashed Their Social Security Checks Within 1 Year
           (A-09-10-20133)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA) took
           appropriate action when beneficiaries had not cashed their Social Security checks
           within 1 year.

           BACKGROUND
           SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
           under Title II of the Social Security Act. The OASDI program provides monthly benefits
           to retired and disabled workers, including their dependents and survivors. 1

           Individuals receiving Social Security benefit checks issued after September 30, 1989
           may cash them up to 1 year after their issue date. 2 After 1 year, the checks are
           non-negotiable, and banks should no longer accept them. If the Department of the
           Treasury’s (Treasury) records show a beneficiary did not cash a check within 1 year of
           the issue date, it returns the funds, with identifying information, to SSA in the form of a
           limited payability credit in the 15th month after the check’s issue date. 3 Generally, when
           SSA receives a limited payability credit, its Return Check Action Program updates the
           beneficiary’s payment record with the credit. In addition, according to its policy, SSA
           sends a letter to the beneficiary inquiring if the check was received and cashed (see




           1
               The Social Security Act, § 201 et seq., 42 U.S.C. § 401 et seq.
           2
            See SSA, POMS, GN 02401.901.B (October 8, 2009) citing the Competitive Equality Banking Act of
           1987, Pub. L. No. 100-86, August 10, 1987.
           3
               SSA, POMS, GN 02401.901.B and .C (October 8, 2009).
Page 2 - The Commissioner


Appendix B for sample letter). 4 SSA reviews the records of beneficiaries who respond
to the letter, and if appropriate, reissues the check. If the beneficiary does not respond
to the letter or indicates a cashed payment, no action is required. 5

According to SSA’s Master Beneficiary Record and Payment History Update System,
as of April 2010, 174,477 beneficiaries in current pay status had uncashed benefit
checks totaling $179 million. In addition, SSA’s records showed it had taken no action
to reissue these payments to the beneficiaries. From this population, we reviewed a
random sample of 250 beneficiaries.

RESULTS OF REVIEW
SSA needed to ensure it took appropriate action to reissue payments to eligible
beneficiaries who had not cashed their Social Security checks. Our review of a random
sample of 250 beneficiaries found that uncashed checks totaling $191,565 were
payable to 202 beneficiaries. We also found that SSA properly reissued the payments
to 23 beneficiaries, and the remaining 25 beneficiaries were not eligible for the
payments. Projecting our sample results to the population, we estimate that
$133.7 million in uncashed benefit checks was payable to 140,977 beneficiaries.

We are 90-percent confident the number of eligible beneficiaries who had uncashed
checks ranged from 133,021 to 147,965, and the amount of benefits payable ranged
from $101.4 to $165.9 million (see Appendix D).

Our sample results are summarized below.



                                Beneficiaries with Uncashed Checks
                              Based on a Random Sample of 250 Beneficiaries


          202 Benefits Were                                                   25 Were Not Due
           Payable (80.8%)                                                    Benefits (10.0%)




                                                                            23 Were Issued
                                                                          Replacement Checks
                                                                                (9.2%)




4
    SSA, POMS, GN 02406.180.B.1 (August 23, 2011).
5
    Id.
Page 3 - The Commissioner


We found that benefits were payable and uncashed checks were not reissued to eligible
beneficiaries because

•   SSA did not take corrective actions when beneficiaries or representative payees
    responded to SSA’s letters;

•   representative payees may not be meeting their responsibilities to beneficiaries in
    their care;

•   beneficiaries may have been incapable of managing their benefits when SSA issued
    the checks;

•   SSA did not send required letters to inform beneficiaries they had not cashed a
    check; and

•   SSA policy differences for uncashed benefit checks may have contributed to
    disparate results between OASDI beneficiaries and Supplemental Security Income
    (SSI) recipients.

The following chart summarizes the benefits payable to the 202 beneficiaries.



                    Summary of Benefits Payable to 202 Beneficiaries


      SSA Did Not Send                                                Beneficiary Did Not
        Letter (1.5%)                                                  Respond to SSA
                                                                        Letter (59.4%)




      Representative Payee                                            SSA Did Not Take
      Did Not Cash Checks                                             Corrective Action
            (25.7%)                     Beneficiary May Have               (10.9%)
                                        Been Incapable (2.5%)




SSA Actions When Beneficiaries or Representative Payees Responded to Letters

For 22 of the beneficiaries in our sample, the beneficiary or representative payee
responded to SSA’s letter and indicated they had not cashed the checks. This included
17 that required SSA to review their records and reissue the payment and 5 that
required SSA to contact them for additional information.
Page 4 - The Commissioner


SSA did not issue replacement checks to 17 beneficiaries or representative payees.
These individuals responded to SSA’s letter indicating their checks had not been
cashed. However, SSA did not take appropriate action to reissue $10,361 in
benefit payments to these individuals. For example, in August 2010, SSA sent a
representative payee a letter informing them the beneficiary’s May 2009 check for
$1,380 may not have been cashed. In September 2010, the representative payee
responded to the letter confirming the check had not been cashed. However, SSA did
not take action to reissue the payment.

SSA did not contact five beneficiaries or representative payees who had responded to
SSA’s letters. These individuals returned the letters to SSA but did not sign them or
indicated they were unsure if they had cashed the checks. When this occurs, SSA
policy requires that an SSA employee contact the beneficiary or representative payee to
resolve the discrepancy or return the letter to the beneficiary for signature. 6 We found
no evidence that SSA contacted these individuals, as required. As a result, SSA did not
reissue $2,765 in uncashed checks to the affected beneficiaries.

Representative Payees Not Meeting Their Responsibilities

A representative payee is an individual or organization appointed by SSA to receive
Social Security benefits for beneficiaries who cannot manage or direct the management
of their finances. 7 The representative payees’ responsibilities are to use benefits for the
beneficiary’s current needs and in their best interests. 8 We found the representative
payees for 52 beneficiaries did not cash $30,900 in checks for their beneficiaries. Since
the representative payees did not cash these checks, they may not have been meeting
the beneficiaries’ needs.

For example, a representative payee did not cash two checks, totaling $1,726, issued
in September 2008. In December 2009, SSA sent a letter notifying the representative
payee the beneficiary’s checks may not have been cashed. However, the
representative payee did not respond to the letter.

Beneficiaries Incapable of Managing Their Benefits

We found that five beneficiaries were aged or disabled when SSA issued $4,245 in
checks they did not cash. SSA subsequently appointed representative payees to
manage the benefits for these beneficiaries. These beneficiaries may have been
incapable of managing their benefits when SSA issued the checks.

For example, SSA issued two checks in February and July 2009 to a 91-year-old
beneficiary. In February 2010, SSA appointed a representative payee for the

6
    SSA, POMS, GN 02401.905.D (January 17, 2008).
7
    Social Security Act §§ 205(j) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j) and 1383(a)(2)(A)(ii).
8
    SSA, POMS, GN 00605.001.B.1 (November 7, 2008).
Page 5 - The Commissioner


beneficiary. We contacted the representative payee and beneficiary’s daughter in
January 2012. We learned the beneficiary had developed dementia in 2009 and was
no longer able to manage his benefits.

SSA Letters to Inform Beneficiaries of Uncashed Checks

SSA did not send letters to three beneficiaries in our sample. We found no evidence
that SSA mailed the notices to the beneficiaries. As a result, these beneficiaries were
unaware their checks had not been cashed. Had SSA notified the beneficiaries, they
could have requested replacement checks for $3,649 in benefits.

If the beneficiary’s record reflects an uncashed payment within the past 12 months, SSA
mails an automated letter to ask the beneficiary whether he/she cashed the check9
unless benefits had been suspended pending the selection of a representative payee or
for address reasons, or if the beneficiary is deceased. Of the three beneficiaries in our
sample, two were in current pay status when SSA received the limited payability credit
and one had been suspended for address reasons. SSA’s Online Retrieval System
(ORS) should retain a copy of all letters sent to beneficiaries. We reviewed ORS and
found no evidence that SSA had sent letters to the two beneficiaries in current pay
status.

For example, SSA did not send a letter to a beneficiary for five uncashed checks
because his benefits had been suspended for address reasons. The beneficiary
had uncashed checks totaling $3,149 that were issued between February and
October 2007. In January 2012, we contacted the beneficiary and learned he was
away from home when SSA issued the checks. The beneficiary stated he did not
receive any notices from SSA and had neither received nor cashed the checks.

SSA Policies and Procedures for Uncashed Benefit Checks

Of the 250 beneficiaries in our sample, 120 did not respond to SSA’s letters. Our
review of the 120 beneficiaries found they were all eligible for the uncashed checks.
In addition, 100 of these beneficiaries had only 1 uncashed check from January 2000 to
January 2009. Consequently, there was no apparent reason these beneficiaries did not
respond to SSA’s letters. However, we believe SSA’s policy differences for uncashed
benefit checks between OASDI beneficiaries and SSI recipients may have contributed
to a lower response rate for OASDI beneficiaries.

When an OASDI beneficiary or representative payee does not cash a check after
1 year, SSA mails an automated letter that states a particular check(s) may not have
been cashed (see Appendix B for sample letter). If the beneficiary or representative
payee responds to the letter, an SSA employee must review the beneficiary’s record
to determine whether the check is still payable. If the beneficiary or representative



9
    SSA, POMS, GN 02406.180.B.1 (August 23, 2011).
Page 6 - The Commissioner


payee indicates they did not cash the check and signs the letter, SSA will reissue the
payment, if appropriate. If the beneficiary or representative payee does not respond to
the letter, SSA policy directs employees to take no further action. 10

Conversely, under the SSI program, 11 when a recipient or representative payee does
not cash a check after 1 year, SSA policy requires that a field office employee contact
the recipient or representative payee to determine why he or she did not cash the check
and take necessary action to reissue the check. 12 SSA policy states it does not send a
notice because SSI is a needs-based program, and direct contact is required whenever
an SSI recipient does not cash a check after 1 year. 13

For many OASDI beneficiaries, Social Security is their major source of income.
According to SSA statistics, Social Security benefits comprise at least 90 percent of
total income for one-third of beneficiaries over age 65. Social Security is the major
source of income (that is, between 50 and 100 percent of total income) for two-thirds of
beneficiaries over age 65. 14

We found that personal contact with beneficiaries provided valuable information to
resolve why beneficiaries had not cashed their checks. For example, in January 2012,
we contacted a disabled beneficiary who had 10 uncashed checks, totaling $24,684,
issued between May 2005 and November 2006, and learned he had not cashed the
checks because of his illness. The beneficiary stated he received benefits via direct
deposit because he had been bedridden for 5 years. The beneficiary also stated he had
a large amount of unopened mail at home, including checks and letters, but was too ill
to review it. In February 2012, we referred this case to SSA for appropriate action. In
April 2012, SSA reissued payments to the beneficiary.

Since 2000, SSA reissued approximately 45 percent of uncashed SSI checks or used
them to reduce an existing overpayment. However, for OASDI, SSA only reissued
20 percent of uncashed checks or used them to reduce an existing overpayment.




10
     Id.
11
     Social Security Act, § 1601 et seq., 42 U.S.C. § 1381 et seq.
12
     SSA, POMS, GN 02401.904.B (August 27, 2009).
13
     SSA, POMS, GN 02401.905.A (January 17, 2008).
14
     SSA, Income of the Population 55 or Older, 2010, Table 5.A5.
Page 7 - The Commissioner


BENEFICIARIES WHO HAD MORE THAN 12 UNCASHED CHECKS

We identified 176,517 beneficiaries with uncashed checks that SSA had not reissued.
About 91 percent of these beneficiaries had only one or two uncashed checks. From
the population of 176,517 beneficiaries, we identified 2,040 beneficiaries who had
more than 12 uncashed checks. Given the high number of uncashed checks, we
are concerned these beneficiaries could be deceased or their whereabouts may
be unknown. As depicted in the chart below, these beneficiaries had not cashed
$42.3 million in benefit payments. On average, each beneficiary had 27 uncashed
checks totaling $20,715. 15 The checks were outstanding, on average, for 6.5 years. 16

        Number of                    Number of          Total Checks
     Uncashed Checks                Beneficiaries       Outstanding           Total Benefits
 Between 13 and 24                      1,295               21,970             $17,344,602
 Between 25 and 36                        376               10,998              $8,534,889
 Between 37 and 48                        161                 6,653             $4,917,961
 Between 49 and 60                         76                 4,069             $3,106,501
 Between 61 and 72                         33                 2,183             $1,995,894
 Between 73 and 84                         42                 3,267             $2,475,697
 85 or more                                57                 5,691             $3,883,150
 Total                                  2,040               54,831             $42,258,694

At the beginning of our audit, we identified a beneficiary who had 89 months of
uncashed checks, totaling $17,700 that SSA issued from July 2002 through
February 2010. SSA had mailed 87 automated letters to the beneficiary’s address of
record. There was no evidence that the post office returned the letters as undeliverable,
and SSA took no further actions despite the number of uncashed checks.

In May 2011, we referred this case to SSA for review. SSA made personal contact with
the beneficiary’s daughter at the beneficiary’s address and determined the beneficiary
had left the United States and died in September 2002. However, SSA did not know of
the beneficiary’s change of address and death. Because of its personal contact, SSA
obtained a death certificate and took corrective action to terminate her benefits.




15
  The mean was 27 checks and $20,715 in benefits. The median was 20 checks and $14,770 in
benefits.
16
     The mean was 6.5 years. The median was 6 years.
Page 8 - The Commissioner


We subsequently selected a random sample of 100 beneficiaries who had more than
12 uncashed checks. This included 93 beneficiaries to whom SSA had not issued
replacement checks. In September 2011, we provided the 93 beneficiaries’ names to
SSA for appropriate action. As of April 2012, SSA had repaid or stated it would reissue
benefits totaling $495,205 to 29 beneficiaries. In addition, SSA suspended benefits
to eight beneficiaries pending the selection of a representative payee or for address
reasons, and terminated benefits for death for six beneficiaries. SSA also initiated
action to resolve the uncashed checks for the remaining 50 beneficiaries.

CONCLUSION AND RECOMMENDATIONS
SSA needed to ensure it took appropriate action to reissue payments to eligible
beneficiaries who had not cashed their Social Security checks. Based on our random
sample of 250 beneficiaries, 202 (81 percent) were eligible for payment. As a result, we
estimate that $133.7 million in uncashed checks was payable to 140,977 beneficiaries.

This occurred because (1) SSA did not take corrective actions when beneficiaries or
representative payees responded to SSA’s letters, (2) representative payees may not
have been meeting their responsibilities to beneficiaries in their care, (3) beneficiaries
may not have been capable of managing their benefits when SSA issued the checks,
(4) SSA did not send required letters to inform beneficiaries they had not cashed
a check, and (5) SSA policy differences for uncashed benefit checks may have
contributed to disparate results between OASDI beneficiaries and SSI recipients.

In December 2010, Treasury published a new rule requiring that all Social Security
beneficiaries switch from paper checks to electronic payment (that is, direct deposit or
Direct Express debit card) by March 2013. 17 Although almost all beneficiaries will
receive electronic payments beginning in March 2013, some will continue receiving
paper checks because Treasury regulations allow for exemptions to the electronic
payment requirement (for example, any beneficiary born before May 1921 may continue
to receive paper checks). As of February 2011, about 6.4 million OASDI beneficiaries
received payments by paper check. Of these, about 198,000 (3.1 percent) were born
before May 1921, and therefore, are not required to switch to electronic payment by
March 2013. In addition, Treasury will continue returning funds to SSA until May 2014
for all checks issued before March 2013 that beneficiaries did not cash within 1 year of
the issue date.




17
     SSA, POMS, GN 02402.001 (April 29, 2011).
Page 9 - The Commissioner


We recommend that SSA:

1. Take corrective action, as appropriate, to resolve and reissue payments to the
   202 beneficiaries identified by our audit. Based on the results of the corrective
   action for the 202 beneficiaries, develop a cost-effective method to reissue
   payments to the estimated population of 140,977 beneficiaries who had not cashed
   their Social Security checks.

2. Remind employees to contact beneficiaries who respond to SSA’s letter but do not
   provide complete information and issue replacement checks to eligible beneficiaries,
   as required.

3. Determine whether it should revise its method of contact when beneficiaries do not
   cash a check, particularly in those instances when representative payees have not
   cashed a check or when beneficiaries have not cashed several checks.

AGENCY COMMENTS
SSA agreed with Recommendation 2 but did not agree with Recommendations 1 and 3.

SSA stated it disagreed with Recommendation 1 because it already takes corrective
action to resolve and reissue payments when beneficiaries or representative payees
respond to SSA’s automated letters. SSA further stated it properly followed its current
policy for 98 percent of the 250 sample cases that we reviewed. Finally, SSA stated
that reviewing all of the estimated population of 140,977 beneficiaries was prohibitive
and would divert scarce resources from other priority workloads.

SSA stated it disagreed with Recommendation 3 because its current policy clearly
outlines its process to contact beneficiaries. SSA also stated that a policy change
would result in an increased operational workload and require the commitment of
resources that are not available. Finally, SSA stated it does not believe revising its
method of contact is cost-effective.

The Agency’s comments are included in Appendix E.

OIG RESPONSE
Given that we found 81 percent (202 out of 250) of the beneficiaries in our sample were
eligible for payments, we believe that a change in SSA’s current policy may be
warranted. However, before making any policy changes or reviewing the entire
population of 140,977 beneficiaries, we recommended that SSA first resolve and
reissue payments, if appropriate, to the 202 beneficiaries identified by our audit. Upon
completion of this review, SSA would have better information to determine whether it is
cost-effective to review all or part of the larger population of beneficiaries who may be
eligible for reissuance of their benefits. It should also provide SSA with information to
determine whether policy revisions would be appropriate. Regardless, we believe SSA
Page 10 - The Commissioner


should take additional steps when representative payees do not cash beneficiaries’
checks or when beneficiaries do not cash several checks. The intent of our
recommendations is not to increase workloads for SSA but to ensure all beneficiaries
are paid the benefits they are entitled to receive and to reduce the vulnerability of
issuing payments to beneficiaries who may be deceased.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Sample Beneficiary Letter

APPENDIX C – Scope and Methodology

APPENDIX D – Sampling Methodology and Results

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
MBR        Master Beneficiary Record
OASDI      Old-Age, Survivors and Disability Insurance
OIG        Office of the Inspector General
ORS        Online Retrieval System
PHUS       Payment History Update System
POMS       Program Operations Manual System
SSA        Social Security Administration
SSI        Supplemental Security Income
Treasury   Department of the Treasury
U.S.C.     United States Code
                                                                                       Appendix B

Sample Beneficiary Letter

Social Security Administration
Retirement, Survivors and Disability Insurance
Important Information

                                                                                      SSA Regional Office
                                                                                      Name and Address
                                                                                      Date
                                                                                      Claim Number

Beneficiary Name and Address

We are conducting a review of payments issued to beneficiaries. The purpose of this review is to make
sure that checks are cashed within the time allowed by law. You were selected for this review. Our
records show that you may not have cashed the check(s) listed below.

What You Should Do

Please look at your records to see if you have cashed them. Draw a circle around the one(s) not cashed.

                 Amount            Dates
                 $1,762.00         November 8, 2006

Did you circle any of the checks listed above? If so, please sign and date this letter, and return it to us in
the enclosed envelope. If you cashed every check listed above, you do not need to do anything.

If You Have Any Questions

We invite you to visit our website at www.socialsecurity.gov on the Internet to find general information
about Social Security. If you have any specific questions, you may call us toll-free at 1-800-772-1213, or
call your local Social Security office at 1-520-321-1167. We can answer most questions over the phone.
If you are deaf or hard of hearing, you may call our TTY number, 1-800-325-0778. You can also write or
visit any Social Security office. The office that serves your area is located at:

                          Social Security Field Office Name and Address

If you do call or visit an office, please have this letter with you. It will help us answer your questions.
Also, if you plan to visit an office, you may call ahead to make an appointment. This will help us serve
you more quickly when you arrive at the office.

I did not cash the check(s) circled on this letter.

Signature _______________ Date __________
                                                                         Appendix C

Scope and Methodology
From the Social Security Administration’s (SSA) Master Beneficiary Record (MBR)
and Payment History Update System (PHUS), we obtained a data extract of
174,477 beneficiaries in current pay status who had 12 or fewer uncashed checks
over $50 issued between January 2000 and January 2009 that SSA had not reissued
as of April 2010.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act, Federal regulations, and
    SSA’s Program Operations Manual System;

•   interviewed SSA personnel from the San Francisco Regional Office and Offices of
    Payment and Recovery Policy and Public Service and Operations and Support;

•   reviewed queries from SSA’s MBR, PHUS, Online Retrieval System, Representative
    Payee System, and Claims File Records Management System for each sample item;
    and

•   obtained and reviewed electronic folders, including the Department of the Treasury
    Check Information System, when necessary, to determine actions taken by SSA.

We determined the computer-processed data from the MBR and PHUS were sufficiently
reliable for our intended use. We conducted tests to determine the completeness and
accuracy of the data. These tests allowed us to assess the reliability of the data and
achieve our audit objectives.

We performed audit work in Richmond, California, between July 2011 and April 2012.
The entity audited was the Office of Operations under the Deputy Commissioner for
Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
                                                                             Appendix D

Sampling Methodology and Results
We obtained a data extract from the Social Security Administration’s (SSA) Master
Beneficiary Record and Payment History Update System of 174,477 beneficiaries in
current pay status who had 12 or fewer uncashed checks over $50 that SSA had not
reissued as of April 2010. We selected a random sample of 250 beneficiaries to
determine whether SSA took appropriate action when beneficiaries had not cashed
their Social Security checks within 1 year.

We found that SSA did not reissue $191,565 in uncashed checks for 202 of
the 250 beneficiaries in our sample. Projecting these results to our population of
174,477 beneficiaries, we estimate that $133.7 million in uncashed checks are payable
to 140,977 beneficiaries.

The following tables provide the details of our sample results and statistical projections.

                     Table D-1 – Population and Sample Size
               Description                       Number of Beneficiaries
 Population Size                                       174,477
 Sample Size                                               250

    Table D-2 – Beneficiaries with Uncashed Checks That Were Not Resolved
                                        Number of            Amount of
             Description              Beneficiaries       Benefits Payable
 Sample Results                              202               $191,565
 Point Estimate                          140,977           $133,694,565
 Projection - Lower Limit                133,021           $101,439,368
 Projection - Upper Limit                147,965           $165,949,761
 Note: All statistical projections are at the 90-percent confidence level.
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      July 6, 2012                                                            Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Beneficiaries Who Had Not Cashed Their Social
           Security Checks Within 1 Year" (A-09-10-20133)—INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “BENEFICIARIES WHO HAD NOT CASHED THEIR SOCIAL SECURITY
CHECKS WITHIN 1 YEAR” (A-09-10-20133)

Recommendation 1

Take corrective action, as appropriate, to resolve and reissue payments to the 202 beneficiaries
identified by our audit. Based on the results of the corrective action for the 202 beneficiaries,
develop a cost-effective method to reissue payments to the estimated population of
140,977 beneficiaries who had not cashed their Social Security checks.

Response

We disagree. We already take corrective action to resolve and reissue payment to beneficiaries
who do not cash their check within one year. When an Old-Age, Survivors and Disability
Insurance beneficiary or representative payee does not cash a check within one year, we mail an
automated letter to the beneficiary or representative payee stating they may not have cashed a
particular check(s). If the beneficiary or representative payee signs the letter and indicates they
did not cash the check, we reissue payment, if appropriate. If the beneficiary or representative
payee does not respond to the letter or indicates that they cashed the check, no further action is
taken. In approximately 98 percent of the cases OIG reviewed, we followed our policy. For
those cases OIG identified within its sample of 250 beneficiaries where we did not follow
existing policy, we will take corrective action. However, the effort involved in reviewing all the
cases projected in this audit (140,977) is prohibitive and would divert scarce resources from
other priority workloads.

In addition, by March 2013, the Department of Treasury (Treasury) will require all beneficiaries
to switch from paper checks to electronic payment, with few exceptions. The new regulation
will dramatically reduce the number of non-negotiated checks.

Recommendation 2

Remind employees to contact beneficiaries who respond to SSA’s letter but do not provide
complete information and issue replacement checks to eligible beneficiaries, as required.

Response

We agree.

Recommendation 3

Determine whether it should revise its method of contact when beneficiaries do not cash a check,
particularly in those instances when representative payees have not cashed a check or when
beneficiaries have not cashed several checks.




                                                E-2
Response

We disagree. Our existing policy clearly outlines our process and provides instructions for
contact when we receive a limited payability credit from Treasury. Changes to the current
process would result in an increased operational workload and require the commitment of
resources that are not available. In light of our current processes, we do not believe revising our
method of contact is cost-effective.




                                                E-3
                                                                        Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgments

In addition to those named above:

   Vickie Choy, Senior Auditor

   Wilfred Wong, Information Technology Specialist

For additional copies of this report, please visit our Website at http://oig.ssa.gov/
or contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-09-10-20133.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                        Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.

                                               Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.

                                         Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.

                           Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.

                                      Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.

                         Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
